                                                                                         Federal Register / Vol. 75, No. 180 / Friday, September 17, 2010 / Notices                                                                                     57039

                                                                                                                                                                           Number of         Frequency of                Average time               Annual hour
                                                                                             Type of respondent                                                           respondents          response                  per response                 burden

                                                          Totals ......................................................................................................             1,500   ........................   ..........................           701
                                                        * These individuals are included in the 1,500 above.


                                                       Request for Comments: Written                                           FEDERAL TRADE COMMISSION                                              Deadline for Submission of Written
                                                     comments and/or suggestions from the                                                                                                         Comments or Statements for Discussion
                                                     public and affected agencies are invited                                  DEPARTMENT OF HEALTH AND                                           at the Workshop: Written comments or
                                                     on one or more of the following points:                                   HUMAN SERVICES                                                     statements to be considered for
                                                     (1) Whether the proposed collection of                                                                                                       discussion at the Workshop may be sent
                                                     information is necessary for the proper                                   Centers for Medicare & Medicaid                                    via mail or electronically to the address
                                                     performance of the function of the                                        Services                                                           specified in the ADDRESSES section of
                                                     agency, including whether the                                                                                                                this notice and must be received by 5
                                                     information will have practical utility;                                  [CMS–1356–N]                                                       p.m. E.D.T. on September 27, 2010.
                                                     (2) The accuracy of the agency’s                                                                                                             ADDRESSES: Meeting Location: The
                                                                                                                               DEPARTMENT OF HEALTH AND                                           public workshop will be held in the
                                                     estimate of the burden of the proposed                                    HUMAN SERVICES
                                                     collection of information, including the                                                                                                     main auditorium of the Central Building
                                                     validity of the methodology and                                                                                                              of the Centers for Medicare & Medicaid
                                                                                                                               Office of the Inspector General                                    Services, 7500 Security Boulevard,
                                                     assumptions used; (3) Ways to enhance
                                                     the quality, utility, and clarity of the                                  Medicare Program; Workshop                                         Baltimore, MD 21244–1850.
                                                                                                                               Regarding Accountable Care                                            Registration and Special
                                                     information to be collected; and (4)
                                                                                                                               Organizations, and Implications                                    Accommodations: Persons interested in
                                                     Ways to minimize the burden of the
                                                                                                                               Regarding Antitrust, Physician Self-                               attending the meeting in person must
                                                     collection of information on those who                                                                                                       register by completing the on-line
                                                     are to respond, including the use of                                      Referral, Anti-Kickback, and Civil
                                                                                                                               Monetary Penalty (CMP) Laws                                        registration via the CMS Web site at
                                                     appropriate automated, electronic,                                                                                                           http://www.cms.hhs.gov/apps/events/
                                                     mechanical, or other technological                                        AGENCY:  Federal Trade Commission                                  event.asp?id=607 Individuals who
                                                     collection techniques or other forms of                                   (FTC), Centers for Medicare & Medicaid                             require special accommodations should
                                                     information technology.                                                   Services (CMS), and Office of the                                  send an e-mail request to
                                                       For Further Information Contact: To                                     Inspector General (OIG), HHS.                                      thomas.carey@hhs.gov or via regular
                                                     request more information on the                                           ACTION: Notice of meeting.                                         mail to the address specified in the FOR
                                                     proposed project or obtain a copy of the                                                                                                     FURTHER INFORMATION CONTACT section of
                                                     data collection plans and instruments,                                    SUMMARY:    This notice announces a                                this notice. Information regarding
                                                     contact Dr. Luigi Ferrucci, Principal                                     public workshop hosted by the Federal                              attending via teleconference and Web
                                                     Investigator, NIA Clinical Research                                       Trade Commission (FTC), the Centers                                conference will be posted on the CMS
                                                     Branch, Harbor Hospital, 5th Floor,                                       for Medicare & Medicaid Services                                   Web site at http://www.cms.gov/center/
                                                     3001 S. Hanover, Baltimore, MD 21225,                                     (CMS), and the Office of the Inspector                             physician.asp prior to the session.
                                                                                                                               General (OIG) of the Department of                                    Written Comments or Statements:
                                                     or call this non-toll-free number (410)
                                                                                                                               Health and Human Services (DHHS).                                  Written comments or statements may be
                                                     350–3936 or E-mail your request
                                                                                                                               This workshop will include panel                                   sent via e-mail to
                                                     including your address to:                                                discussions and a listening session on                             ACOlegalissues@cms.hhs.gov or sent via
                                                     Ferruccilu@grc.nia.nih.gov.                                               certain legal issues related to                                    regular mail to: Attn: ACO Legal Issues,
                                                       Comments Due Date: Comments                                             Accountable Care Organizations (ACOs).                             Mail Stop C5–15–12, Centers for
                                                     regarding this information collection are                                 Physicians, physician associations,                                Medicare & Medicaid Services, 7500
                                                     best assured of having their full effect if                               hospitals, health systems, consumers,                              Security Boulevard, Baltimore, MD
                                                     received within 60-days of the date of                                    and all others interested in ACOs are                              21244–1850.
                                                     this publication.                                                         invited to participate, in person or by                               All persons planning to make a
                                                                                                                               calling into the teleconference. The                               statement in person at the afternoon
                                                       Dated: September 8, 2010.
                                                                                                                               meeting is open to the public, but                                 listening session are urged to submit
                                                     Melissa Fraczkowski,                                                      attendance is limited to space and                                 statements in writing in advance of the
                                                     Project Clearance Liason, NIA, National                                   teleconference lines available. An                                 listening session and should
                                                     Institutes of health.                                                     agenda will be posted on the CMS Web                               subsequently submit the information
                                                     [FR Doc. 2010–23263 Filed 9–16–10; 8:45 am]                               site at http://www.cms.gov/center/                                 electronically by the timeframe
                                                     BILLING CODE 4140–01–P                                                    physician.asp prior to the session.                                specified in the DATES section of this
                                                                                                                               DATES: Meeting Date: The public                                    notice.
                                                                                                                               workshop will be held on Tuesday,                                  FOR FURTHER INFORMATION CONTACT:
                                                                                                                               October 5, 2010 from 9 a.m. until 4:30                             Kristin Bohl at (410) 786–8680, for
wwoods2 on DSK1DXX6B1PROD with NOTICES_PART 1




                                                                                                                               p.m. Eastern Daylight Time (E.D.T.).                                 issues specific to CMS.
                                                                                                                                  Deadline for Meeting Registration and                           Elizabeth Jex at (202) 326–3273, for
                                                                                                                               Request for Special Accommodations:                                  issues specific to FTC.
                                                                                                                               Registration opens on September 16,                                Patrice Drew at (202) 619–1368, for
                                                                                                                               2010. Registration must be completed by                              issues specific to OIG.
                                                                                                                               5 p.m. e.d.t. on September 27, 2010.                               Thomas Carey at (410) 786–4560, for
                                                                                                                               Requests for special accommodations                                  general and logistical issues. You may
                                                                                                                               must be received by 5 p.m. e.d.t. on                                 also send general and logistical
                                                                                                                               September 27, 2010.                                                  inquiries about this workshop via e-


                                                VerDate Mar<15>2010       14:46 Sep 16, 2010          Jkt 220001      PO 00000        Frm 00061        Fmt 4703       Sfmt 4703   E:\FR\FM\17SEN1.SGM         17SEN1
                                                     57040                       Federal Register / Vol. 75, No. 180 / Friday, September 17, 2010 / Notices

                                                       mail to thomas.carey@hhs.gov or via                   developing to implement the Medicare                  integration efforts planned and
                                                       regular mail at Centers for Medicare &                Shared Savings Program.                               underway, payers (insurers, employers,
                                                       Medicaid Services, Mail Stop C5–15–                     In addition, an ACO may wish to                     and consumers), and experts in health
                                                       12, 7500 Security Boulevard,                          contract with payers in the private                   care policy.
                                                       Baltimore, MD 21244–1850.                             health care market, as well as with CMS.                 At the first session, the panelists will
                                                     SUPPLEMENTARY INFORMATION:                              Experience has shown that integrating                 address circumstances under which
                                                                                                             health care delivery among independent                collaboration among independent health
                                                     I. Background                                           providers is a complex process that                   care providers in an ACO (not including
                                                       The Affordable Care Act seeks to                      requires a substantial commitment of                  a merger), permits ACO providers to
                                                     improve the quality of health care                      health care providers’ resources and                  engage in joint price negotiations with
                                                     services and to lower health care costs                 time.1 Recent commentary suggests that,               private payers without running the risk
                                                     by encouraging providers to create                      because of the resources and time                     of engaging in illegal price fixing under
                                                     integrated health care delivery systems.                required to integrate independent                     the antitrust laws. In particular, the
                                                     These integrated systems will test new                  provider practices, health care providers             panel will address the indicia of clinical
                                                     reimbursement methods intended to                       are more likely to integrate their care               integration sufficient to indicate that an
                                                     incentivize providers to enhance health                 delivery for Medicare and Medicaid                    ACO is likely to enable participating
                                                     care quality and lower costs. One                       beneficiaries if they also use the same               providers to improve the quality of their
                                                     important delivery system reform is the                 delivery system for patients covered by               health care services and whether joint
                                                     Affordable Care Act’s Shared Savings                    health care insurance in the private                  price negotiation is reasonably
                                                     Program, section 3022 of the Affordable                 market. The potential for ACOs to                     necessary to achieve these efficiencies.
                                                     Care Act, which promotes the formation                  operate in both public and private                    Such indicia could include, for
                                                                                                             insurance markets further supports the                example, the degree to which the
                                                     and operation of Accountable Care
                                                                                                             need to explore the application to ACOs               providers engage in integrated activities,
                                                     Organizations (ACOs). Under this
                                                                                                             of the laws discussed above for which                 the information processes used to
                                                     provision, ‘‘groups of providers . . .
                                                                                                             the FTC, CMS, and OIG have                            ensure that providers are coordinating
                                                     meeting the criteria specified by the
                                                                                                             enforcement responsibilities.                         patient care, incentives for providers to
                                                     Secretary may work together to manage
                                                                                                                                                                   adhere to evidence-based care protocols
                                                     and coordinate care for Medicare . . .                  II. Workshop Format, Discussion                       such as financial risk sharing, and/or
                                                     beneficiaries through an [ACO].’’ An                    Topics, and Solicitation of Public                    financial and resource investments
                                                     ACO may receive payments for shared                     Comment                                               made by providers. The panel also will
                                                     savings if the ACO meets certain quality
                                                                                                             A. Format of Panel Discussions and                    address options for dealing with
                                                     performance standards established by                                                                          Medicare ACOs that fail to achieve
                                                     the Secretary. In addition, under section               Listening Session
                                                                                                                                                                   CMS-required quality performance
                                                     3021 of the Affordable Care Act, the                      To explore these issues, the FTC,                   standards and that, therefore, might no
                                                     Secretary is authorized to test whether                 CMS, and OIG will be hosting a public                 longer be eligible for Medicare Shared
                                                     ACOs improve the quality of care for                    workshop on October 5, 2010 to obtain                 Savings Program payments under
                                                     Medicare beneficiaries and reduce                       information from industry stakeholders                section 3022 of the Affordable Care Act.
                                                     unnecessary costs for the Medicare                      who have an interest in, or experience                   At the second morning session, the
                                                     program.                                                with, the development and operation of                panelists will explore ways to encourage
                                                       A variety of legal regimes—such as                    ACOs. One key focus of the workshop                   formation of multiple ACOs among
                                                     the antitrust laws, the physician self-                 will be to assess how the variety of                  otherwise independent providers so that
                                                     referral prohibition (section 1877 of the               possible ACO structures in different                  competition among ACOs in any given
                                                     Social Security Act (the Act)), the                     health care markets could affect the                  geographic market will drive improved
                                                     Federal anti-kickback statute (section                  prices and the quality of health care                 quality and affordability of health care.
                                                     1128B(b) of the Act), and the civil                     delivered to privately insured                        For example panelists will explore: (1)
                                                     monetary penalty (CMP) law (sections                    consumers, as well as to Medicare and                 The analysis of arrangements where
                                                     1128A(b)(1) and (2) of the Act)—will                    Medicaid beneficiaries. Another key                   providers or facilities are exclusive, or
                                                     apply to ACOs, including those                          focus will be whether and, if so, how                 non-exclusive, to an ACO; (2) the
                                                     participating in the Medicare Shared                    the requirements of the laws discussed                impact, if any, of risk-based contracting
                                                     Savings Program pursuant to section                     above could or should be addressed in                 (for example, global payments and/or
                                                     3022 of the Affordable Care Act. The                    the regulations that CMS is developing                capitated rates) on market power
                                                     Federal Trade Commission (FTC)                          for the Medicare Shared Savings                       assessments; (3) ways to assess whether
                                                     together with the Department of Justice                 Program. Finally, the workshop will                   formation of an ACO among
                                                     Antitrust Division enforce the Federal                  focus on whether and, if so, to what                  independent providers may allow the
                                                     antitrust laws; the Centers for Medicare                extent any safe harbors, exceptions,                  ACO to increase price and reduce the
                                                     & Medicaid Services (CMS) has primary                   exemptions, or waivers from the laws                  quality of care; and (4) the financial,
                                                     enforcement authority for the physician                 discussed above may be warranted.                     utilization, outcome, and patient
                                                     self-referral prohibition; and the Office                                                                     experience data necessary to monitor
                                                                                                             1. FTC Panel Discussions
                                                     of the Inspector General (OIG) of the                                                                         and measure the impact of an ACO on
                                                     Department of Health and Human                             The two morning sessions will be
wwoods2 on DSK1DXX6B1PROD with NOTICES_PART 1




                                                                                                                                                                   prices and quality in the relevant
                                                     Services (DHHS) enforces the anti-                      devoted to exploring antitrust issues                 markets.
                                                     kickback statute and CMP law and                        through moderated panel discussions.
                                                     imposes CMPs for knowing violations of                  Panelists for both antitrust panels will              2. CMS and OIG Panel Discussion and
                                                     the physician self-referral prohibition.                include health care providers with                    Listening Session
                                                     Each of these agencies recognizes the                                                                            The afternoon will consist of two
                                                                                                                1 Stephen M. Shortell, Lawrence P. Casalino,
                                                     importance of evaluating how to apply                                                                         separate sessions regarding how ACOs
                                                                                                             Elliott Fisher, ‘‘Implementing Accountable Care
                                                     these laws to the creation and operation                Organizations,’’ Policy Brief (May 2010), available
                                                                                                                                                                   will interact with the physician self-
                                                     of ACOs. All of these laws also are                     at: http://www.law.berkeley.edu/files/chefs/          referral prohibition, the anti-kickback
                                                     relevant to the regulations that CMS is                 Implementing_ACOs_May_2010.pdf.                       statute, and the CMP law in order to


                                                VerDate Mar<15>2010   14:46 Sep 16, 2010   Jkt 220001   PO 00000   Frm 00062   Fmt 4703   Sfmt 4703   E:\FR\FM\17SEN1.SGM   17SEN1
                                                                                 Federal Register / Vol. 75, No. 180 / Friday, September 17, 2010 / Notices                                          57041

                                                     better inform CMS and OIG (HHS                          exceptions and safe harbors might be                  personal information, such as an
                                                     Agencies) decision-making regarding                     tailored to further address integration.              individual’s Social Security number;
                                                     the application of these laws to ACOs.                                                                        date of birth; driver’s license number or
                                                                                                             1. Exercise of the Section 3022
                                                     The first session will be a moderated                                                                         other State identification number or
                                                                                                             Affordable Care Act Waiver Authority
                                                     panel discussion of industry                                                                                  foreign country equivalent; passport
                                                     stakeholders, including representatives                    Section 3022 of the Affordable Care                number; financial account number; or
                                                     of providers, suppliers, and health                     Act gives the Secretary authority to                  credit or debit card number. Comments
                                                     policy experts who will focus on the                    waive such requirements of Title XVIII                also should not include any sensitive
                                                     discussion topics listed below.                         as well as sections 1128A and 1128B of                health information, such as medical
                                                       During the second session, a listening                the Act as may be necessary to carry out              records and other individually
                                                     session, there will be an opportunity for               the provisions of section 3022 of the                 identifiable health information.
                                                     other attendees to provide brief                        Affordable Care Act. The HHS Agencies                   Written comments or statements will
                                                     comments on the same topics either in                   are interested in hearing from the public             be accepted and considered for
                                                                                                             whether a waiver, to the extent granted,              discussion at the meeting if they are
                                                     person or via the teleconference, as time
                                                                                                             should apply only to the incentive                    received at the address specified in the
                                                     permits. An agenda for the moderated
                                                                                                             payments distributed to the ACOs and                  ADDRESSES section of this notice by the
                                                     panel discussions and the listening
                                                                                                             participating physicians (and other                   date specified in the DATES section of
                                                     session will be released at a later time.
                                                                                                             participating suppliers or ACO                        this notice.
                                                     B. Discussion Topics and Solicitation of                professionals), or whether it would be
                                                     Public Comment                                          necessary to create a broader waiver that             III. Registration Instructions
                                                                                                             would also apply to other financial                      For security reasons, any persons
                                                       The FTC and the HHS Agencies are                      relationships created by ACOs that                    wishing to attend this meeting must
                                                     interested in comments addressing the                   participate in the Medicare Shared                    register by the date listed in the DATES
                                                     intersection of these laws and the                      Savings Program under section 3022 of                 section of this notice. Persons interested
                                                     various business models envisioned for                  the Affordable Care Act. If the public                in attending the meeting in person must
                                                     ACOs with both the antitrust laws and                   believes that a broader waiver is                     register by completing the on-line
                                                     the fraud and abuse laws. The FTC and                   necessary, the HHS Agencies request                   registration via the designated Web site
                                                     the HHS Agencies are interested in                      that interested stakeholders provide                  at http://www.cms.hhs.gov/apps/events/
                                                     details from the public concerning the                  support for this view. For example, if                event.asp?id=607. The on-line
                                                     types of contractual and financial                      the public recommends a waiver that                   registration system will generate a
                                                     relationships under existing or planned                 applies to all contractual service                    confirmation page to indicate the
                                                     ACOs that might trigger or implicate the                relationships between ACOs and ACO                    completion of your registration. Please
                                                     antitrust laws, the physician self-referral             professionals, the HHS Agencies are                   print this page as your registration
                                                     prohibition and/or the anti-kickback                    interested to hear why this is necessary              receipt.
                                                     statute (for example, compensation and                  and what safeguards should be required                   Individuals may also participate in
                                                     ownership relationships), as well as                    as part of such a broad waiver.                       the listening session by teleconference
                                                     payment arrangements that might
                                                                                                             2. Creation of New Stark Exception and                or webcast. Information regarding
                                                     implicate the CMP law (for example,
                                                                                                             Anti-Kickback Safe Harbor                             attending via teleconference and Web
                                                     gainsharing structures). In addition to
                                                                                                                                                                   conference will be posted on the CMS
                                                     obtaining information on the planned                       An alternative to the use of the                   Web site at http://www.cms.gov/center/
                                                     legal structures or business models of                  Secretary’s waiver authority under                    physician.asp prior to the session.
                                                     ACOs, the HHS Agencies seek                             section 3022 of the Affordable Care Act                  An audio download and transcript of
                                                     comments addressing whether the                         would be for the Secretary to use her                 the listening session will be available 2
                                                     public believes that the incentive                      authority under section 1877(b)(4) of the             weeks after completion of the listening
                                                     payments or shared savings to ACOs, or                  Act to create a new shared savings/                   session through the CMS Web site
                                                     the distribution of these payments to the               incentive payment exception to the                    Physician Center Spotlights at http://
                                                     physicians or other providers and                       physician self-referral prohibition.                  www.cms.gov/center/physician.asp.
                                                     suppliers in the ACO, would trigger or                  Similarly, OIG could consider a new
                                                     implicate the physician self-referral                   safe harbor under section 1128B(b)(3) of              IV. Security, Building, and Parking
                                                     prohibition, the anti-kickback statute,                 the Act. CMS has attempted to address                 Guidelines
                                                     and/or the CMP law. Much of the                         this issue in prior proposed rulemaking                 This meeting will be held in a Federal
                                                     discussion to date has involved the                     under section 1877 of the Act, and the                government building; therefore, Federal
                                                     integration of group practices, hospitals,              HHS Agencies are interested in the                    security measures are applicable. In
                                                     and networks of physicians or other                     public’s recommendations for how a                    planning your arrival time, we
                                                     professionals into ACOs, and we are                     meaningful exception and safe harbor                  recommend allowing additional time to
                                                     interested in how these types of                        for the incentive payments related to the             clear security. The on-site check-in for
                                                     arrangements might be constrained by                    newly created ACOs could be crafted. In               visitors will begin at 7:30 a.m. E.D.T.
                                                     these laws. We are asking the public to                 particular, they are interested in how a              Please allow sufficient time to complete
                                                     describe in detail any potential                        physician self-referral exception could               security checkpoints.
                                                     impediments, including an explanation                                                                           Security measures include the
wwoods2 on DSK1DXX6B1PROD with NOTICES_PART 1




                                                                                                             be designed given that any new
                                                     as to how current physician self-referral               exception under section 1877 of the Act               following:
                                                     prohibition exceptions or anti-kickback                 must present no risk of program or                      • Presentation of government-issued
                                                     statute safe harbors might be inadequate                patient abuse.                                        photographic identification to the
                                                     to address the types of financial                                                                             Federal Protective Service or Guard
                                                     arrangements that will be created by                    C. Content and Timeframe for                          Service personnel.
                                                     ACOs. We are also interested in                         Submission of Written Comments or                       • Interior and exterior inspection of
                                                     explanations about the extent to which                  Statements                                            vehicles (this includes engine and trunk
                                                     these laws currently accommodate                          Written comments or statements                      inspection) at the entrance to the
                                                     integration and ways in which existing                  should not include any sensitive                      grounds. Parking permits and


                                                VerDate Mar<15>2010   14:46 Sep 16, 2010   Jkt 220001   PO 00000   Frm 00063   Fmt 4703   Sfmt 4703   E:\FR\FM\17SEN1.SGM   17SEN1
                                                     57042                       Federal Register / Vol. 75, No. 180 / Friday, September 17, 2010 / Notices

                                                     instructions will be issued after the                     Name of Committee: Musculoskeletal, Oral              Contact Person: Rass M. Shayiq, PhD,
                                                     vehicle inspection.                                     and Skin Sciences Integrated Review Group;            Scientific Review Officer, Center for
                                                        • Passing through a metal detector                   Skeletal Muscle and Exercise Physiology               Scientific Review, National Institute of
                                                     and inspection of items brought into the                Study Section.                                        Health, 6701 Rockledge Drive, Room 2182,
                                                                                                               Date: October 12–13, 2010.                          MSC 7818, Bethesda, MD 20892, (301) 435–
                                                     building. We note that all items brought                  Time: 8 a.m. to 5 p.m.                              2359, shayiqr@csr.nih.gov.
                                                     to CMS, whether personal or for the                       Agenda: To review and evaluate grant                  Name of Committee: Center for Scientific
                                                     purpose of demonstration or to support                  applications.                                         Review Special Emphasis Panel; PAR10–142:
                                                     a demonstration, are subject to                           Place: Doubletree Hotel Bethesda, 8120              Interface of the Life and Physical Sciences.
                                                     inspection.                                             Wisconsin Avenue, Bethesda, MD 20814.                   Date: October 20–22, 2010.
                                                        We cannot assume responsibility for                    Contact Person: Richard Ingraham, PhD,                Time: 8 a.m. to 4:30 p.m.
                                                     coordinating the receipt, transfer,                     Scientific Review Officer, Center for                   Agenda: To review and evaluate grant
                                                     transport, storage, set-up, safety, or                  Scientific Review, National Institutes of             applications.
                                                                                                             Health, 6701 Rockledge Drive, Room 4116,                Place: Bethesda Marriott Suites, 6711
                                                     timely arrival of any personal
                                                                                                             MSC 7814, Bethesda, MD 20892, 301–496–                Democracy Boulevard, Bethesda, MD 20817.
                                                     belongings or items used for                            8551, ingrahamrh@mail.nih.gov.                          Contact Person: Malgorzata Klosek, PhD,
                                                     demonstration or to support a                                                                                 Scientific Review Officer, Center for
                                                                                                               Name of Committee: Center for Scientific
                                                     demonstration.                                          Review Special Emphasis Panel; Risk                   Scientific Review, National Institutes of
                                                        Note: Individuals who are not registered in          Prevention and Intervention Addictions:               Health, 6701 Rockledge Drive, Room 4188,
                                                     advance will not be permitted to enter the              Overflow.                                             MSC 7849, Bethesda, MD 20892, (301) 435–
                                                     building and will be unable to attend the                 Date: October 14–15, 2010.                          2211, klosekm@csr.nih.gov.
                                                     meeting. The public may not enter the                     Time: 8 a.m. to 6 p.m.                                Name of Committee: Healthcare Delivery
                                                     building earlier than 90 minutes prior to the             Agenda: To review and evaluate grant                and Methodologies Integrated Review Group;
                                                     convening of the meeting. All visitors must             applications.                                         Health Services Organization and Delivery
                                                     be escorted in areas other than the lower and             Place: Georgetown Suites, 1000 29th Street,         Study Section.
                                                     first floor levels in the Central Building.             NW., Washington, DC 20007.                              Date: October 20–21, 2010.
                                                     Seating capacity is limited to the first 350              Contact Person: Gabriel B. Fosu, PhD,                 Time: 8 a.m. to 5 p.m.
                                                     registrants.                                            Scientific Review Officer, Center for                   Agenda: To review and evaluate grant
                                                                                                             Scientific Review, National Institutes of             applications.
                                                       Authority: Section 3022 of the Affordable             Health, 6701 Rockledge Drive, Room 3108,                Place: InterContinental Mark Hopkins
                                                     Care Act.                                               MSC 7808, Bethesda, MD 20892, (301) 435–              Hotel, 999 California Street, San Francisco,
                                                       Dated: September 13, 2010.                            3562, fosug@csr.nih.gov.                              CA 94108.
                                                                                                               Name of Committee: Center for Scientific              Contact Person: Kathy Salaita, SCD,
                                                       By Direction of the Commission.                                                                             Scientific Review Officer, Center for
                                                                                                             Review Special Emphasis Panel; Member
                                                     Donald S. Clark,                                        Conflict: Pathogens and Symbiotes.                    Scientific Review, National Institutes of
                                                     Secretary, The Federal Trade Commission.                  Date: October 19–20, 2010.                          Health, 6701 Rockledge Drive, Room 3172,
                                                       Dated: September 9, 2010.                               Time: 8:30 a.m. to 4:30 p.m.                        MSC 7770, Bethesda, MD 20892, 301–451–
                                                                                                               Agenda: To review and evaluate grant                8504, salaitak@csr.nih.gov.
                                                     Donald M. Berwick,
                                                                                                             applications.                                           Name of Committee: Center for Scientific
                                                     Administrator, Centers for Medicare &
                                                                                                               Place: National Institutes of Health, 6701          Review Special Emphasis Panel; PAR–08–
                                                     Medicaid Services.
                                                                                                             Rockledge Drive, Bethesda, MD 20892                   062: Alzheimer’s Disease Pilot Clinical
                                                       Dated: September 13, 2010.                            (Virtual Meeting).                                    Trials.
                                                     Daniel R. Levinson,                                       Contact Person: Richard G Kostriken, PhD,             Date: October 22, 2010.
                                                     Inspector General.                                      Scientific Review Officer, Center for                   Time: 1 p.m. to 3 p.m.
                                                     [FR Doc. 2010–23340 Filed 9–16–10; 8:45 am]             Scientific Review, National Institutes of               Agenda: To review and evaluate grant
                                                                                                             Health, 6701 Rockledge Drive, Room 3192,              applications.
                                                     BILLING CODE 6750–01–P; 4120–01–P; 4152–01–P
                                                                                                             MSC 7808, Bethesda, MD 20892, 301–402–                  Place: National Institutes of Health, 6701
                                                                                                             4454, kostrikr@csr.nih.gov.                           Rockledge Drive, Bethesda, MD 20892
                                                                                                               Name of Committee: Center for Scientific            (Telephone Conference Call).
                                                     DEPARTMENT OF HEALTH AND                                Review Special Emphasis Panel; Program                  Contact Person: Estina E Thompson, PhD,
                                                     HUMAN SERVICES                                          Project: Mechanisms and Circuits Underlying           MPH, Scientific Review Officer, Center for
                                                                                                             Arousal.                                              Scientific Review, National Institutes of
                                                     National Institutes of Health                             Date: October 19–20, 2010.                          Health, 6701 Rockledge Drive, Room 3178,
                                                                                                               Time: 9 a.m. to 2 p.m.                              MSC 7848, Bethesda, MD 20892, 301–496–
                                                     Center for Scientific Review; Notice of                   Agenda: To review and evaluate grant                5749, thompsone@mail.nih.gov.
                                                     Closed Meetings                                         applications.                                           Name of Committee: Center for Scientific
                                                                                                               Place: National Institutes of Health, 6701          Review Special Emphasis Panel; Program
                                                       Pursuant to section 10(d) of the
                                                                                                             Rockledge Drive, Bethesda, MD 20892                   Project: Biomedical Technology Research
                                                     Federal Advisory Committee Act, as                      (Virtual Meeting).                                    Resource.
                                                     amended (5 U.S.C. App.), notice is                        Contact Person: Kristin Kramer, PhD,                  Date: October 24–26, 2010.
                                                     hereby given of the following meetings.                 Scientific Review Officer, Center for                   Time: 7 p.m. to 11 a.m.
                                                       The meetings will be closed to the                    Scientific Review, National Institutes of               Agenda: To review and evaluate grant
                                                     public in accordance with the                           Health, 6701 Rockledge Drive, Room 5205,              applications.
                                                     provisions set forth in sections                        MSC 7846, Bethesda, MD 20892, (301) 437–                Place: Beacon Hill Hotel, 25 Charles Street,
                                                     552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,              0911, kramerkm@csr.nih.gov.                           Boston, MA 02114.
wwoods2 on DSK1DXX6B1PROD with NOTICES_PART 1




                                                     as amended. The grant applications and                    Name of Committee: Center for Scientific              Contact Person: Lee Rosen, PhD, Scientific
                                                                                                             Review Special Emphasis Panel; Member                 Review Officer, Center for Scientific Review,
                                                     the discussions could disclose
                                                                                                             Conflict: Toxicology.                                 National Institutes of Health, 6701 Rockledge
                                                     confidential trade secrets or commercial                                                                      Drive, Room 5116, MSC 7854, Bethesda, MD
                                                                                                               Date: October 19, 2010.
                                                     property such as patentable material,                                                                         20892, (301) 435–1171, rosenl@csr.nih.gov.
                                                                                                               Time: 11 a.m. to 5 p.m.
                                                     and personal information concerning                       Agenda: To review and evaluate grant                  Name of Committee: Center for Scientific
                                                     individuals associated with the grant                   applications.                                         Review Special Emphasis Panel; Cancer and
                                                     applications, the disclosure of which                     Place: National Institutes of Health, 6701          Musculoskeletal Imaging Applications.
                                                     would constitute a clearly unwarranted                  Rockledge Drive, Bethesda, MD 20892                     Date: October 25, 2010.
                                                     invasion of personal privacy.                           (Virtual Meeting).                                      Time: 8 a.m. to 5 p.m.



                                                VerDate Mar<15>2010   14:46 Sep 16, 2010   Jkt 220001   PO 00000   Frm 00064   Fmt 4703   Sfmt 4703   E:\FR\FM\17SEN1.SGM   17SEN1
